GR-70-98-008
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Police Hiring Supplement Grant Awarded to the
New Haven, Connecticut Police Department
 
GR-70-98-008
December 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of a grant awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs (OJP), Bureau of Justice Assistance (BJA), to the New Haven Police Department
(New Haven). New Haven received a grant of $981,488 to hire or rehire 10 law enforcement
officers under the Police Hiring Supplement (PHS) program.

Based on our audit, we found that New Haven properly managed the PHS grant:



Costs charged to the grant were allowable and in accordance with grant requirements. As
      of December 27, 1997, New Haven had requested payments totaling $596,000 (or 49.8 percent)
      of the $1,196,229 total costs charged to the grant.




Since the inception of the PHS grant, the number of officers budgeted has not decreased
      below the FY 1993 budget, which was the year before the grant was awarded.




New Haven appeared to be making a good-faith effort to fill officer vacancies.




Local matching funds were appropriately provided from funds not already budgeted for law
      enforcement purposes.



However, we found the following weaknesses with regard to meeting the conditions of the
  grant:



New Haven will have excess funds of $159,521 at the end of the grant period.




New Haven requested and received an advance payment before hiring grant funded officers
      and held advance payments longer than 30 days.




New Haven did not always submit timely and completed Quarterly Progress Reports and
      Financial Status Reports.




New Haven did not increase the number of officers performing community policing
      activities by the number of officers funded under the grant.


These items are discussed in the Findings and Recommendations section of the report.
Our Scope and Methodology appear in Appendix II.
#####